APPLICATION FOR AN EXTENSION OF
TIME TO FILE PETITION FOR WRIT OF
CERTIORARI BEFORE THE SUPREME
COURT OF THE UNITED STATES

To The Honorable Clarence Thomas, Associate
Justice, Supreme Court of the United States:

Petitioner, Scott Rothstein’s, Application pursuant to
Supreme Court Rule 13.5 for an extension of time of 60
days to file his Petition for a Writ of Certiorari before the
Supreme Court. In support thereof, Petitioner, through
undersigned counsel, submits as follows:
1. Judgment Sought To Be Reviewed.
The decision of the United States Court of Appeal for
the Eleventh Circuit in case number 18-11796, United
States v. Scott Rothstein, decision filed September 30,
2019. A copy of the decision is attached hereto.
2. This Court's Jurisdiction.
This Court has appellate jurisdiction in this matter as it
presents a question of Federal law involving a point of
Constitutional law; specifically, violations of Petitioner's
constitutional rights including Petitioner's right to Due
Process of Law.
3. Reasons Why an Extension is Justified.
Petitioner's active cooperation with the Government
against an international organized crime figure resulted
in him being housed for his sentence in a confidential
location for his own safety. Pursuant to the Program
administering this housing, Petitioner has no access to
emails, as do other federal inmates and mail delivery is
significantly slower.
Phone communication with
counsel has been more limited than in general
population.

Petitioner's location and housing makes it difficult for
counsel to visit.
Due to the conditions of Petitioner's confinement, his
ability to communicate with undersigned counsel has
been significantly curtailed. Petitioner is a former
attorney who has been actively involved in his defense,
including preparation of his appeals. As a result,
Petitioner's very limited ability to communicate with
counsel has hampered counsel's ability to file a Petition
for Writ of Certiorari within the prescribed period under
this Court's Rules.
Petitioner respectfully requests an extension of 60 days
to file his Petition for a Writ of Certiorari before this
Court.
Submitted,

Law Offices of Marc S. Nurik
1551 Manning Ave. #302
Los Angeles, CA 90024
marc@nuriklaw,com
Counsel for Petitioner

Date: December 27, 2019

Certificate of Service
I hereby certify under penalty of perjury that as of this
day, December 27, 2019, I caused to be placed a copy of
this Application in the U.S. Mail to be delivered to:
Solicitor General of the United States, Room 5616,
Department of Justice, 950 Pennsylvania Ave., N. W.,
Washington, DC 20530-0001
Phillip DeRosa
Assistant United States
Attorney Southern District of
Florida
99 N.E. 4th St.
Miami, Florida 33132
Phillip.DiRosa@usdoj.gov
Counsel for Government

Marc Nurik
Law Offices of Marc S. Nurik
1551 Manning Ave., #302
Los Angeles, CA 90024
marc@nuriklaw,com
Counsel for Petitioner

15

